No. 20-5379
INTHE

hprtmt Ctrnurt nf t!Jt lttittb btts
KEITH ADAIR DAVIS,

Petitioner,

V.

STATE OF WASHINGTON,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
SUPREME COURT OF WASHINGTON

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I, Matthew T. Martens, a member of
the bar of this Court, certify that the accompanying Brief for The Cato Institute as
Amicus Curiae in Support of Petitioner contains 4,266 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.l(d).
Executed on September 30, 2020.

MATTHEW T. MARTENS

Counsel of R ecord

WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW

Washington, DC 20006

(202) 663-6000

matthew.martens@wilmerhale.com

